CAPITAL CASE EXECUTION SCHEDULED – JANUARY 12, 2021
No. 20A24

IN THE SUPREME COURT OF THE UNITED STATES

LISA MONTGOMERY, APPLICANT,
V.
WARDEN OF USP TERRE HAUTE, UNITED STATES OF AMERICA, RESPONDENTS.
SUPPLEMENT TO APPLICATION FOR STAY OF EXECUTION

The district court noted that the definition for “substantial showing” of inomptence was
not defined. It should be the same standard as required under the AEDPA to appeal from the
denial of a 2254 petition, the standard for graning a certificate of appealability (COA).
The standard for granting COA under AEDPA is “materially identical” to that under preAEDPA law. Hardwick v. Singletary, 126 F.3d 1312, 1313 (11th Cir. 1997). Prior to AEDPA,
the petitioner was required to make “‘a substantial showing of the denial of [a] federal right.”’
Barefoot v. Estelle, 463 U.S. 880, 893 (1983) (quoting Steward v. Beto, 454 F.2d 268, 270 n.2
(5th Cir. 1971)). The Barefoot standard does not require that the petitioner show he should
prevail on the merits. Barefoot, 463 U..S. at 893 n.4. Rather, it has long been understood as a
formulation of the nonfrivolity standard. Under that standard, a petitioner was entitled to
issuance of a certificate of probable cause where “reasonable jurists could debate whether (or, for
that matter, agree that) the petition should have been resolved in a different manner or that the
issues presented were ‘adequate to deserve encouragement to proceed further,’” Miller-El v.
Cockrell, 537 U.S. 322, 336 (2003), or when a claim is not “squarely foreclosed by statute, rule
or authoritative court decision.” Barefoot at 893 n.4 (emphasis added). “In a capital case, the
nature of the penalty is a proper consideration in determining whether to issue a certificate of
probable cause . . ..” Id. at 893.
Under this standard, Mrs. Montgomery made a substantial showing of Ford
incompetence. Her claims cearly are not frivolous and “deserved encouragement to proceed
further.” Ths lower circuit court applied too high a stanbard for “substantial showing,” and te
district court got ir right.

Respectfully submitted,
Kelley J. Henry
Supervisory Asst. Fed. Public Defender
Amy D. Harwell
Asst. Chief, Capital Habeas Unit
Office of the Federal Public Defender
Middle District of Tennessee
810 Broadway, Suite 200
Nashville, Tennessee 37203
Phone: (615) 736-5047
Lisa G. Nouri
2526 Holmes Street
Kansas City, Missouri 64108
Phone: (816) 471-1000
lisanouri_atty@hotmail.com
BY:/s/ Kelley J. Henry
Counsel for Lisa Montgomery

CERTIFICATE OF SERVICE
I, Kelley J. Henry, certify that a true and correct copy of the foregoing was served via the
court’s CM/ECF filing system which served all registered filers by email.
/s/ Kelley J. Henry
Counsel for Lisa Marie Montgomery

